              Audit Report



The Social Security Administration’s
 Information Technology Support
  Services Contract with Northrop
  Grumman Systems Corporation




        A-04-13-13090 | June 2014
MEMORANDUM


Date:      June 13, 2014                                                      Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   The Social Security Administration’s Information Technology Support Services Contract with
           Northrop Grumman Systems Corporation (A-04-13-13090)

           The attached final report presents the results of our audit. Our objectives were to (1) ensure the
           Social Security Administration received the services for which it contracted with Northrop
           Grumman Systems Corporation and (2) review the services Northrop Grumman provided and
           related costs charged to the Agency for adherence to the negotiated contract terms and applicable
           regulations.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
The Social Security Administration’s Information Technology
Support Services Contract with Northrop Grumman Systems
Corporation
A-04-13-13090
June 2014                                                                 Office of Audit Report Summary

Objectives                               Our Findings

To ensure the Social Security            We determined that SSA had received the IT services required
Administration (SSA) received the        under the NG contract. NG billed SSA for services (labor hours) in
services for which it contracted with    accordance with the contract terms. Specifically, NG billed the
Northrop Grumman Systems                 correct labor rates for the labor categories identified in the contract.
Corporation (NG) and review the          Further, NG’s employee or subcontractor time records properly
services NG provided and related costs   supported the labor hours it billed SSA. NG submitted invoices to
charged to the Agency for adherence to   SSA promptly, and SSA made timely and accurate payments. SSA
the negotiated contract terms and        personnel also properly monitored the contract.
applicable regulations.
                                         However, we found instances where SSA did not timely terminate
Background                               contractors’ and subcontractors’ access to the Agency’s systems
                                         when they stopped working on the contract. In some cases, the
SSA’s Office of Systems designs,         systems access termination date was more than 100 days after their
develops, and implements new             departure date. While SSA implemented procedures during our
software to support SSA’s program,       audit period to improve this process, we believe the Agency has a
administrative, management               responsibility to ensure these controls are effective in preventing
information, and office automation       untimely systems access terminations.
systems. To do so, the Office of
Systems must take advantage of           Our Recommendation
current and emerging technologies and
acquire skilled personnel.               For the remaining contract option years, we recommend SSA
                                         management perform periodic reviews to ensure that system access
On September 10, 2010, SSA awarded       for contractor staff no longer working under a contract is terminated
the Information Technology Support       in accordance with SSA’s policies and procedures.
Services Contract (contract number
SS00-10-60082) to NG for skilled         SSA agreed with our recommendation.
information technology (IT) support
services. The contract period was
7 years: 1 base year and six, 1-year
options. SSA issues task orders
against the contract on a
firm-fixed-price, time-and-materials
basis. Through option year 1, SSA had
authorized about $73.5 million under
the contract.
TABLE OF CONTENTS
Objectives ........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     SSA Did Not Always Comply with Its Systems Access Policies and Procedures ....................3
Conclusions ......................................................................................................................................4
Recommendation .............................................................................................................................5
Agency Comments ...........................................................................................................................5
Appendix A – Contract Technical Areas of Service .................................................................. A-1
Appendix B – Scope and Methodology ..................................................................................... B-1
Appendix C – Sampling Methodology....................................................................................... C-1
Appendix D – Agency Comments .............................................................................................. D-1
Appendix E – Major Contributors...............................................................................................E-1




SSA’s IT Support Services Contract with Northrop Grumman Systems Corporation (A-04-13-13090)
ABBREVIATIONS
CMT                 Contract Management Tasks

CSO                 Component Security Officer

FAR                 Federal Acquisition Regulation

IT                  Information Technology

NG                  Northrop Grumman Systems Corporation

OIG                 Office of the Inspector General

SSA                 Social Security Administration




SSA’s IT Support Services Contract with Northrop Grumman Systems Corporation (A-04-13-13090)
OBJECTIVES
Our objectives were to (1) ensure the Social Security Administration (SSA) received the services
for which it contracted with Northrop Grumman Systems Corporation (NG) and (2) review the
services NG provided and related costs charged to the Agency for adherence to the negotiated
contract terms and applicable regulations.

BACKGROUND
SSA strives to provide enhanced services to the American public by reshaping its policies and
procedures to take maximum advantage of information technology (IT). As such, the Agency
makes significant investments in IT to change how it conducts business, build a stronger IT
foundation, and improve its software and databases.

SSA’s Office of Systems designs, develops, and implements new software to support SSA’s
program, administrative, management information, and office automation systems. To do so, the
Office of Systems must take advantage of current and emerging technologies and acquire skilled
personnel.

On September 10, 2010, SSA awarded the Information Technology Support Services Contract
(contract number SS00-10-60082) to NG for skilled IT support services. 1 The effective date of
the contract was September 29, 2010. The contract period was 7 years: 1 base year and six,
1-year options. This is an Indefinite Delivery, Indefinite Quantity, 2 contract that allows work to
be performed under either firm-fixed-price 3 or time-and-materials agreements 4 with
not-to-exceed limits. To establish NG’s tasks and authorize costs, SSA added multiple
Amendment of Solicitation/Modification of Contract or Order for Supplies or Services to the
contract. For the base year and option year 1, SSA authorized costs of $32.2 and $41.3 million,
respectively. See Table 1 for a summary of contract actions for the 2 contract years.




1
 Under the solicitation for services for this contract, SSA awarded four contracts to four different contractors.
Pursuant to Federal Acquisition Regulation (FAR) § 16.504(a), the maximum quantity of services ordered from the
combined contracts is not to exceed $2.8 billion over the contract period, while the minimum guaranteed quantity of
services ordered from each is $2.5 million.
2
 FAR § 16.501-2(a) states, in part, “The appropriate type of indefinite-delivery contract may be used to acquire
supplies and/or services when the exact times and/or exact quantities of future deliveries are not known at the time
of the contract award.” FAR § 16.501-2(b)(3) states, “Indefinite-quantity contracts limit the Government’s
obligation to the minimum quantity specified in the contract.”
3
 A firm-fixed-price contract provides for a price that is not subject to any adjustment based on the contractor’s cost
experience in performing the contract. FAR § 16.202-1.
4
 FAR § 16.601(b) states, “A time-and-materials contract provides for acquiring supplies or services on the basis of
(1) Direct labor hours at a specified fixed hourly rate that include wages, overhead, general and administrative
expenses and profit, and (2) Actual cost for materials (except as provided for in 31.205-26(e) and (f)).”



SSA’s IT Support Services Contract with Northrop Grumman Systems Corporation (A-04-13-13090)                             1
                    Table 1: Summary Contract Costs Reimbusement Agreements
                                                                                       Percent of
                           Method for                            Dollars
                                                                                      Total Dollars
                  Billing and Reimbursement                     Authorized
                                                                                       Authorized
                                            Base Year
               Time-and-Materials                  $30,402,407                              94.3
               Firm-Fixed-Price                       1,839,470                              5.7
                      Base Year Total              $32,241,877                             100.0
                                          Option Year 1
               Time-and-Materials                  $40,444,905                              97.8
               Firm-Fixed-Price                         889,778                              2.2
                    Option Year 1 Total            $41,334,683                             100.0
                              Base Year and Option Year 1 Combined
               Time-and-Materials                  $70,847,312                              96.3
               Firm-Fixed-Price                       2,729,248                              3.7
                      Combined Totals              $73,576,560                             100.0

The contract provides IT support services primarily to SSA’s Office of Systems. The contract
requires that NG provide technical services under nine technical areas 5 and allows NG to charge
for its contract management tasks (CMT) services. 6

To achieve our audit objectives, we reviewed information pertaining to services received under
the contract and related costs charged to SSA. We selected and tested a sample of task orders
that SSA issued during the base year and option year 1 of the contract and a sample of NG and
subcontractors from the selected task orders. We also contacted or interviewed SSA and NG
officials who executed and managed the contract. See Appendix B for our scope and
methodology and Appendix C for our sampling methodology.

RESULTS OF REVIEW
We determined that SSA had received the IT services required under the NG contract. NG billed
SSA for services (labor hours) in accordance with the contract terms. Specifically, NG billed the
correct labor rates for the labor categories identified in the contract. Further, NG’s employee or
subcontractor time records properly supported the labor hours it billed SSA. NG submitted



5
    See Appendix A for a description of the nine technical areas.
6
 CMT services are the non-technical management and administrative services that support the IT work. The intent
of CMT services is to ensure the contractor effectively plans, staffs, and manages the technical services. Further,
CMT includes costs for equipment, travel, specialized training, and preparation of various cost and production
reports.



SSA’s IT Support Services Contract with Northrop Grumman Systems Corporation (A-04-13-13090)                          2
invoices to SSA promptly, and SSA made timely and accurate payments. SSA personnel also
properly monitored the contract.

However, we found instances where SSA did not timely terminate contractors’ and
subcontractors’ access to the Agency’s systems when they stopped working on the contract. In
some cases, the systems access termination date was more than 100 days after their departure
date. Although SSA implemented procedures during our audit period to improve this process,
we believe the Agency has a responsibility to ensure these controls are effective in preventing
untimely systems access terminations.

SSA Did Not Always Comply with Its Systems Access Policies and
Procedures
We found that SSA did not timely terminate SSA systems access for 11 (22 percent) of
50 sampled NG contractor and subcontractor staff. For 9 of the 11 staff, the systems access
termination date was more than 100 days after their departure date. SSA’s Information Systems
Security Handbook states that “. . . [c]ontrolling and limiting systems access to its information
systems and resources is the first line of defense in ensuring the confidentiality, integrity, and
availability of SSA’s IT resources.” 7 In addition, when access privileges are no longer required,
security officers must immediately deactivate the personal identification numbers of employees
who are inactive, have left the Agency, or are on leave longer than 74 days. 8

During our audit period, SSA had procedures in place to terminate systems access for NG staff
who no longer worked under the contract. 9 Those procedures included NG emailing departure
notifications to SSA’s Contracting Officer’s Technical Representative, Component Security
Officer (CSO), and the Office of Personnel. Once notified, the CSO was responsible for
terminating system access. However, SSA told us that, during the early part of the contract, NG
did not always email the departure notifications to the appropriate CSO or SSA’s contract
oversight staff who received the email did not forward it to the responsible CSO.

SSA told us its process for terminating contractors’ access to its systems has improved since
October 2011—when the Agency implemented a checklist to ensure appropriate SSA staff
received NG’s departure notifications and completed the necessary system access terminations.
SSA implemented this new procedure in response to an OIG report that identified occurrences
where SSA did not timely terminate subcontractors’ systems access. 10 As shown in Table 2, our
review found that 10 of 11 contract staff whose systems access termination was not timely had



7
    Information Systems Security Handbook, Chapter 2, Systems Access Policy, Section 2.1.
8
    Id. at Section 2.3.4.
9
 To assist with administering the contract, SSA provided NG with the Information Technology Support Service
Contract, Contract Administrative Handbook.
10
  The Social Security Administration’s Agency-Wide Support Services Contract with Lockheed Martin
(A-14-10-11004), October 28, 2011, p. 8.



SSA’s IT Support Services Contract with Northrop Grumman Systems Corporation (A-04-13-13090)                  3
left NG’s employ before SSA implemented its new procedure. Additionally, for the one
departure date that occurred after procedure implementation, SSA reduced the elapsed days
between staff departure and system termination.

                 Table 2: Number of Days Before Systems Access Terminated
                                                                         Elapsed Days Before
         Contract      Staff Departure          Systems Access
                                                                           Systems Access
          Staff              Date              Termination Date
                                                                             Terminated
             1           01/31/2011               02/02/2012                      367
             2           04/29/2011               04/03/2012                      340
             3           02/18/2011               01/04/2012                      320
             4           09/28/2011               07/10/2012                      286
             5           09/28/2011               07/03/2012                      279
             6           09/28/2011               07/03/2012                      279
             7           09/07/2011               02/03/2012                      149
             8           05/23/2012               10/04/2012                      134
             9           09/28/2011               02/02/2012                      127
            10           06/03/2011               08/22/2011                       80
            11           04/10/2012               06/14/2012                       65

We acknowledge that the new procedures appear to have improved SSA’s timely termination of
contractor staffs’ systems access. However, our audit period ended October 31, 2012, and we
did not perform tests after this date to determine the continued effectiveness of the procedure.
We also note that, SSA had issued the IT contract to three other contractors, and we would
expect that these contractors had staff with similar access to SSA systems who also occasionally
stopped working under the contracts. Given the importance of protecting the personal and
sensitive information in SSA’s systems, we believe SSA management should perform periodic
reviews to ensure system access for contractor staff no longer working under a contract is
terminated in accordance with SSA’s policies and procedures.

CONCLUSIONS
We determined that SSA received the IT services required under the NG contract. The costs for
the services were allowable, accurate, and paid timely. Additionally, SSA personnel properly
monitored the contract.

We found instances where SSA did not comply with its systems access policies and procedures.
As a result, SSA did not always timely terminate contractors’ and subcontractors’ access to the
Agency’s systems when these individuals stopped working on the contract. While SSA
implemented procedures during our audit period to improve this process, we believe the Agency
has a responsibility to ensure these controls are effective in preventing untimely systems access
terminations.



SSA’s IT Support Services Contract with Northrop Grumman Systems Corporation (A-04-13-13090)        4
RECOMMENDATION
For the remaining contract option years, we recommend SSA management perform periodic
reviews to ensure that system access for contractor staff no longer working under a contract is
terminated in accordance with SSA’s policies and procedures.

AGENCY COMMENTS
SSA agreed with our recommendation. The Agency’s comments are included in Appendix D.




SSA’s IT Support Services Contract with Northrop Grumman Systems Corporation (A-04-13-13090)      5
                                      APPENDICES




SSA’s IT Support Services Contract with Northrop Grumman Systems Corporation (A-04-13-13090)
Appendix A – CONTRACT TECHNICAL AREAS OF SERVICE
On September 10, 2010, SSA awarded the Information Technology Support Services Contract
(contract number SS00-10-60082) to Northrop Grumman Systems Corporation (NG) for skilled
information technology support services. 1 The effective date of the contract was
September 29, 2010. SSA’s contract with NG requires that the contractor provide its services in
nine technical areas. SSA considers Technical Areas 1, 2, and 3 to be critical requirements and
planned the majority of services be provided under these technical areas. Table A–1 provides a
description of the services for each of the technical areas.

                                     Table A–1: Technical Areas of Service
       Technical
                                              Description of Technical Area Services
         Area
            1         Application and Business Planning, Analysis, and Requirements
            2         Application Design, Development, Testing, and Maintenance
            3         Application Validation
            4         Database Administration and Imaging and Document Management
            5         Data Administration, Programmatic Repository, and Enterprise Architecture
            6         Software Engineering and Technology
            7         Emerging Technology Applications
            8         Software Engineering Management
            9         Systems Administration for Mainframe Software




1
    Under the solicitation for services for this contract, SSA awarded four contracts to four different contractors.



SSA’s IT Support Services Contract with Northrop Grumman Systems Corporation (A-04-13-13090)                           A-1
Appendix B – SCOPE AND METHODOLOGY
On September 10, 2010, the Social Security Administration (SSA) awarded the Information
Technology Support Services Contract (contract number SS00-10-60082) to Northrop Grumman
Systems Corporation (NG) for highly skilled information technology support services. 1 The
contract period was 7 years: 1 base year and six, 1-year options. This is an Indefinite Delivery,
Indefinite Quantity, 2 contract that allows work to be performed under either firm-fixed-price 3 or
time-and-materials agreements 4 with not-to-exceed limits. To establish NG’s tasks and authorize
costs, SSA added multiple Amendment of Solicitation/Modification of Contract or Order for
Supplies or Services to the contract. We selected the contract base year and option year 1 for our
review.

To accomplish our audit objectives, we:

      Reviewed the contract between SSA and NG.

      Obtained the invoices paid under this contract. We reviewed the invoices to ensure NG
       timely submitted invoices for payments. We also ensured SSA (1) paid the labor rates
       approved in the contract, (2) paid invoices timely and accurately, and (3) made payments in
       accordance with the contract terms.

      Determined whether SSA received the contracted services and NG met the contract’s
       deliverable schedule.

      Selected and tested a sample of 12 of 73 task orders that SSA issued during the base year and
       option year 1 of the contract (see Sampling Methodology in Appendix C). For the selected
       task orders, we reviewed

          invoices and supporting documents,

          contractor’s performance reports, and

          SSA’s contract oversight reports.


1
    Under the solicitation for services for this contract, SSA awarded four contracts to four different contractors.
2
 Federal Acquisition Regulation (FAR) § 16.501-2(a) states, in part, “The appropriate type of indefinite-delivery
contract may be used to acquire supplies and/or services when the exact times and/or exact quantities of future
deliveries are not known at the time of the contract award.” FAR § 16.501-2(b)(3) states, “Indefinite-quantity
contracts limit the Government’s obligation to the minimum quantity specified in the contract.”
3
 A firm-fixed-price contract provides for a price that is not subject to any adjustment based on the contractor’s cost
experience in performing the contract. FAR § 16.202-1.
4
 FAR § 16.601(b) states, “A time-and-materials contract provides for acquiring supplies or services on the basis of
(1) Direct labor hours at a specified fixed hourly rate that include wages, overhead, general and administrative
expenses and profit, and (2) Actual cost for materials (except as provided for in 31.205-26(e) and (f)).”



SSA’s IT Support Services Contract with Northrop Grumman Systems Corporation (A-04-13-13090)                           B-1
   Selected and tested a sample of NG employees and subcontractors from the selected task
    orders (see Sampling Methodology in Appendix C). For the selected employees and
    subcontractors, we tested time records, résumés, suitability determinations, and security
    access.

   Contacted or interviewed SSA and NG officials who executed and managed the contract,
    including the following.

       SSA’s contracting officer

       Contracting officer’s technical representative

       SSA’s Office of Budget, Finance, Quality, and Management staff

       NG’s program director, business manager, and operations manager

   Reviewed the applicable sections of the FAR.

We conducted our audit from February through November 2013 in Atlanta, Georgia. We
determined the data used for this audit were sufficiently reliable to meet our audit objectives.
Our review of internal controls was limited to obtaining an understanding of the services
required under the contract, SSA’s oversight and monitoring of those services, and verification
and payment of costs charged the Agency.

The principal entity audited was SSA’s Office of Systems under the Office of the Deputy
Commissioner for Systems. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




SSA’s IT Support Services Contract with Northrop Grumman Systems Corporation (A-04-13-13090)    B-2
Appendix C – SAMPLING METHODOLOGY
On September 10, 2010, the Social Security Administration (SSA) awarded the Information
Technology Support Services Contract (contract number SS00-10-60082) to Northrop Grumman
Systems Corporation (NG) for highly skilled information technology support services. 1 The
contract period was 7 years: 1 base year and six, 1-year options. This was an Indefinite
Delivery, Indefinite Quantity, 2 contract that allowed work to be performed under either
firm-fixed-price 3 or time-and-materials agreements 4 with not-to-exceed limits. To establish
NG’s tasks and authorize costs, SSA added multiple Amendment of Solicitation/Modification of
Contract or Order for Supplies or Services to the contract. We selected the contract base year
and option year 1 for our review.

For our 2 selected contract years, SSA issued 70 time-and-material task orders totaling about
$70.8 million and 3 firm-fixed-price task orders totaling about $2.7 million. Table C-1
summarizes the contract costs by time-and-material and firm-fixed-price task orders.

                   Table C-1: Task Order Summary – Base Year and Option Year 1
                                          Time-and-Materials Task Orders
                         Contract Year             Number                               Dollars
                  Base Year                            30                             $30,395,253
                  Option Year 1                        40                              40,372,759
                  Time–and-Materials Totals            70                             $70,768,012
                                    Firm-Fixed-Price Task Orders
                  Base Year                             1                              $1,839,470
                  Option Year 1                         2                                 889,778
                  Firm-Fixed-Price Totals               3                              $2,729,248
                        Combined Totals                73                             $73,497,260




1
    Under the solicitation for services for this contract, SSA awarded four contracts to four different contractors.
2
 Federal Acquisition Regulation (FAR) § 16.501-2(a) states, in part, “The appropriate type of indefinite-delivery
contract may be used to acquire supplies and/or services when the exact times and/or exact quantities of future
deliveries are not known at the time of the contract award.” FAR § 16.501-2(b)(3) states, “Indefinite-quantity
contracts limit the Government’s obligation to the minimum quantity specified in the contract.”
3
 A firm-fixed-price contract provides for a price that is not subject to any adjustment based on the contractor’s cost
experience in performing the contract. FAR § 16.202-1.
4
 FAR § 16.601(b) states, “A time-and-materials contract provides for acquiring supplies or services on the basis of
(1) Direct labor hours at a specified fixed hourly rate that include wages, overhead, general and administrative
expenses and profit, and (2) Actual cost for materials (except as provided for in 31.205-26(e) and (f)).”



SSA’s IT Support Services Contract with Northrop Grumman Systems Corporation (A-04-13-13090)                           C-1
For our review, we selected 12 of the 73 task orders. The costs of the 12 task orders totaled
about $29.7 million (40 percent) of the $73.5 million contract authorized in the 2 contract years.
Following is the criterion used for selecting the task orders.

   The largest dollar task order for each of the nine components that received services under the
    contract.

   Two contract management task orders—one for each of the selected contract years.

   The largest firm-fixed-price task order.

To determine whether NG charged, and SSA paid, costs according to the contract terms, we
randomly selected 1 month in the respective contract year. For those instances in which NG did
not perform work during the selected month, we randomly selected an alternate review month.
For the selected month, we tested employee and subcontractor labor hours billed to SSA. Of the
221 NG and subcontractor staff that charged labor hours during our review month, we tested
supporting time documentation for a sample of 96 staff. NG often assigns multiple staff to a task
order. As such, we randomly selected our sample of 45 NG and 51 subcontractor staff using the
following criterion.

   We identified the number of NG and subcontractor staff who charged labor hours to our
    sampled task orders during our review month.

   We selected five NG and five subcontractor staff from each task order.

   For certain sampled task orders, we tested the time records of all NG and subcontractor staff
    that performed work on the task order.




SSA’s IT Support Services Contract with Northrop Grumman Systems Corporation (A-04-13-13090)    C-2
           Appendix D – AGENCY COMMENTS




                                           SOCIAL SECURITY

MEMORANDUM


Date:      May 13, 2014                                                                Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “The Social Security Administration's Information
           Technology Support Services Contract with Northrop Grumman Systems Corporation”
           (A-04-13-13090) - INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           SSA’s IT Support Services Contract with Northrop Grumman Systems Corporation (A-04-13-13090)    D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“THE SOCIAL SECURITY ADMINISTRATION’S INFORMATION TECHNOLOGY
SUPPORT SERVICES CONTRACT WITH NORTHROP GRUMMAN SYSTEMS
CORPORATION” (A-04-13-13090)

Recommendation

For the remaining contract option years, we recommend SSA management perform periodic
reviews to ensure that system access for contractor staff no longer working under a contract is
terminated in accordance with SSA’s policies and procedures.

Response

We agree. In April 2014, we put procedures in place to conduct quarterly reviews of system
access for contractor staff to ensure timely termination upon departure. In addition, we will
ensure our employees follow proper procedures upon receipt of a final departure notice from the
contractor.




SSA’s IT Support Services Contract with Northrop Grumman Systems Corporation (A-04-13-13090)      D-2
Appendix E – MAJOR CONTRIBUTORS
Theresa Roberts, Director, Atlanta Audit Division

Frank Nagy, Audit Manager

Teaketa Turner, Senior Auditor




SSA’s IT Support Services Contract with Northrop Grumman Systems Corporation (A-04-13-13090)   E-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
